IN THE
SUPREME COURT OF THE UNITED STATES

S.T. and H.L.,

Petitioners

 

v.
STATE OF VERMONT,
Respondent

 

On Petition for Writ of Certiorari
To the Vermont Supreme Court

 

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

 

The Petitioner requests leave to proceed in forma pauperis. The

petitioner has previously been granted leave to proceed in forma pauperis in
the Vermont Superior Court, Windham County Family Division, and in the
Vermont Supreme Court.

No affidavit is attached, beacuse the Vermont Superior Court

appointed counsel for petitioners pursuant to Vt. Stat. Ann. Tit. 13 ยง 5232 as
reflected in the attached docket entry.

Respectfully submitted,

Counsel of Record

Office of the Defender General
6 Baldwin St., 4 Floor
Montpelier, Vermont 05633
(802) 828-3168
marshall.pahl@vermont.gov
